                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                         January 30, 2013


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations

                           J. E. Dyer
                           Chief Financial Officer


FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   REVIEW OF NRC’S IMPLEMENTATION OF THE FEDERAL
                           MANAGERS FINANCIAL INTEGRITY ACT FOR FISCAL
                           YEAR 2012 (OIG-13-A-10)


This report reflects the Office of the Inspector General’s assessment of the Nuclear
Regulatory Commission’s (NRC) fiscal year (FY) 2012 compliance with the Federal
Managers Financial Integrity Act of 1982 (FMFIA). We found that NRC complied with
the FMFIA requirements.


BACKGROUND


The FMFIA, enacted on September 8, 1982, requires ongoing evaluations and reports
of the adequacy of the systems of internal accounting and administrative control of each
executive agency. Further, the FMFIA requires that, each year, the head of each
executive agency report to the President and the Congress on their agency’s
compliance with the FMFIA requirements.


Effective beginning with FY 2006, Office of Management and Budget (OMB) Circular
No. A-123, Management’s Responsibility for Internal Control, revised December 2004,
requires agencies to include the annual FMFIA report as part of the Performance and
Accountability Report under the heading “Management Assurances.” Additionally, this
circular requires management to provide a separate assurance statement relating to the
effectiveness of internal control over financial reporting.
                Audit of NRC’s Implementation of the Federal Managers’ Financial Integrity Act For Fiscal Year 2012


RESULTS


In the agency’s FY 2012 Performance and Accountability Report, the NRC Chairman
provided reasonable assurance that internal control over operations, compliance with
laws and regulations, and internal control over financial reporting were operating
effectively and no material weaknesses were found. The Inspector General concurs
with the assurances made and found that NRC complied with the FMFIA requirements.


AGENCY COMMENTS


A draft report was provided to the Executive Director for Operations and the Chief
Financial Officer for comment. No comments were provided on the report (see
attachment 1).


SCOPE/CONTRIBUTORS


We evaluated the internal controls related to NRC’s implementation of the FMFIA for
FY 2012, and conducted our work at NRC Headquarters during December 2012, in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This audit was conducted by
Kathleen Stetson, Team Leader; Eric Rivera, Team Leader; and Gail F.P. Butler, Senior
Analyst.


If you have any questions, please contact me at 415-5915 or Eric Rivera, Team Leader,
at 415-7032.


cc:   Chairman Macfarlane
      Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      N. Mamish, OEDO
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
                                                                                           Attachment 1
                                             UNITED STATES
                                    NUCLEAR REGULATORY COMMISSION
                                             WASHINGTON, D.C. 20555-0001


                                                  Janua r y 15, 20 13

CHIEF FINANCIAL
   OFFICER




       MEMORANDUM TO:                  Stephen D. Dingbaum
                                       Assistant Inspector General for Audits
                                       Office of the Inspector General

       FROM:                           J. E. Dyer  3t:r>yt1
                                       Chief Financial Officer

       SUBJECT:                        AUDIT ON THE U.S. NUCLEAR REGULATORY COMMISSION 'S
                                       IMPLEMENTATION OF THE FE DERAL MANAGERS' FINANCIAL
                                       INTEGRITY ACT FOR FISCAL YEAR 2012


                 We appreciate the collaborative relationship between the Office of the Inspector

       General, the Office of the Executive Director for Operations, and the Office of the Chief

       Financial Officer in supporting our continuing effort to improve financial reporting . We have

       reviewed the Audit Report on the U.S. Nuclear Regulatory Commission's Implementation of the

       Federal Managers' Financial Integrity Act for Fiscal Year 2012 and are in agreement with the

       report.


       cc:       N. Mamish, AO/OEDO
                 J. Arildsen, OEDO
                 K. Brock, OEDO
                 C. Jaegers, OEDO
